TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Exempt Organizations Function
                      Effectively Processed Requests for
                      Tax-Exempt Status From Charitable
                   Organizations Supporting Hurricane Relief



                                             June 2006

                              Reference Number: 2006-10-089




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 5, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Exempt Organizations Function Effectively
                             Processed Requests for Tax-Exempt Status From Charitable
                             Organizations Supporting Hurricane Relief (Audit # 20060900.H04)

 This report presents the results of our review of the Exempt Organizations (EO) function’s
 oversight of tax-exempt organizations involved with Hurricane relief. The overall objective of
 this review was to assess the adequacy of the EO function’s efforts to ensure new tax-exempt
 organizations providing assistance to individuals affected by Hurricanes Katrina and Rita were
 properly approved and referrals of potentially abusive charitable organizations were given
 priority treatment.
 This review was conducted in conjunction with the President’s Council on Integrity and
 Efficiency (PCIE) as part of its examination of relief efforts provided by the Federal Government
 in the aftermath of Hurricanes Katrina and Rita. As such, a copy of the report will be forwarded
 to the PCIE Homeland Security Working Group, which is coordinating the Inspectors’ General
 reviews of this important subject.

 Synopsis
 Hurricane Katrina was the most destructive and costliest natural disaster to hit the United States.
 The storm surge breached the levees that protected New Orleans, Louisiana, from
 Lake Pontchartrain, causing the flooding of New Orleans. The Hurricane also damaged the
 coastal areas of Louisiana, Mississippi, and Alabama. The Federal Response to Hurricane
 Katrina, Lessons Learned, dated February 2006, estimates the damage along the Gulf Coast is
 $96 billion. Almost immediately after Hurricane Katrina made landfall and the extent of the
 devastation became known, charities began receiving record amounts of donations for Hurricane
 relief. In addition, on September 24, 2005, Hurricane Rita made landfall between
                            The Exempt Organizations Function Effectively
                           Processed Requests for Tax-Exempt Status From
                          Charitable Organizations Supporting Hurricane Relief


Sabine Pass, Texas, and Johnson’s Bayou, Louisiana. Hurricane Rita’s storm surge reopened
some of the levee breaches caused by Hurricane Katrina, reflooded parts of New Orleans, and
caused extensive damage in the coastal areas of southwestern Louisiana. On February 27, 2006,
The Washington Post reported private, nonprofit charities had raised $3.27 billion in donations
for Hurricane Katrina relief, as compared to the $2.8 billion in donations raised after the
September 11, 2001, terrorist attacks.
On September 6, 2005, the Internal Revenue Service (IRS) announced it would provide an
expedited process for new organizations seeking tax-exempt status to provide relief for victims
of Hurricane Katrina.1 We evaluated three aspects of this processing,2 including whether the
EO function properly approved requests for expedited processing of Applications for
Recognition of Exemption Under Section 501(c)(3) of the
Internal Revenue Code (Form 1023), followed procedures
designed to ensure Forms 1023 contained the necessary          The EO function quickly processed
information for determining tax-exempt status, and took        and approved new Hurricane-relief
                                                                organizations’ Forms 1023, which
actions to ensure the public was timely notified of            better positioned organizations to
Hurricane-relief organizations that were granted                 raise funds and provide relief to
tax-exempt status. In all three areas, the EO function                  Hurricane victims.
effectively and timely completed its processing.
In addition, the EO function has established procedures to ensure referrals of potentially abusive
exempt organizations received from both inside and outside the IRS are reviewed to determine if
the allegations should be sent to an EO Examinations function group in the field for further
development. Referrals related to Hurricanes Katrina, Rita, and Wilma are sent to the Financial
Investigations Unit (FIU) for review. The FIU is a new unit within the EO Examinations
function designed to detect and deter fraudulent transactions within the exempt organizations
community through examinations of organizations identified as potentially involved with
fraudulent transactions. The FIU has developed draft procedures to identify potentially abusive
fundraising schemes; to determine if the schemes involve an exempt organization(s); and to take
action to refer the organization(s) to the EO Examinations function, the EO Determinations
function, or another IRS division, as appropriate. These procedures are currently being reviewed
for implementation.




1
  The IRS extended this treatment to organizations seeking tax-exempt status to provide relief to victims of
Hurricanes Rita and Wilma. Hurricane Wilma made landfall in Florida on October 24, 2005.
2 Although the IRS included Hurricane Wilma in the expedite processing of Forms 1023 and review of referrals of
potentially abusive exempt organization activity, we focused on the EO function’s processing of Forms 1023 and
referrals of potential abuse relating to Hurricane disaster relief for Hurricanes Katrina and Rita only.
                                                                                                                  2
                        The Exempt Organizations Function Effectively
                       Processed Requests for Tax-Exempt Status From
                      Charitable Organizations Supporting Hurricane Relief



Recommendations
We made no recommendations in this report; however, key IRS management officials reviewed
the report prior to issuance and agreed with the facts and findings presented. EO function
management also agreed our report will provide the following measurable benefit on tax
administration: improved taxpayer burden. One tax-exempt organization’s address was
corrected in the Cumulative List of Organizations described in Section 170(c) of the Internal
Revenue Code of 1986 (Publication 78).
Copies of this report are being sent to the IRS managers affected by the report. Please contact
me at (202) 622-8500 if you have questions or Daniel R. Devlin, Assistant Inspector General for
Audit (Headquarters Operations and Exempt Organizations Programs), at (202) 622-8500.




                                                                                                3
                                 The Exempt Organizations Function Effectively
                                Processed Requests for Tax-Exempt Status From
                               Charitable Organizations Supporting Hurricane Relief




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Exempt Organizations Function Properly Expedited and
          Processed Requests for Tax-Exempt Status From Charitable
          Organizations Supporting Hurricane Relief..................................................Page 3
          The Tax Exempt and Government Entities Division Has Developed
          Draft Procedures for Reviewing Referrals of Potentially Abusive
          Organizations Related to Hurricane Relief ...................................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Detailed Information on Case Sampling
          Methodology and Results .............................................................................Page 14
                              The Exempt Organizations Function Effectively
                             Processed Requests for Tax-Exempt Status From
                            Charitable Organizations Supporting Hurricane Relief




                                             Background

Hurricane Katrina was the most destructive and costliest natural disaster to hit the United States.
On August, 29, 2005, Hurricane Katrina made landfall near Plaquemines Parish, Louisiana.
The storm surge breached the levees that protected New Orleans, Louisiana, from
Lake Pontchartrain, causing the flooding of New Orleans. The Hurricane also damaged the
coastal areas of Louisiana, Mississippi, and Alabama. The Federal Response to Hurricane
Katrina, Lessons Learned, dated February 2006, estimates the damage along the Gulf Coast is
$96 billion. On September 24, 2005, Hurricane Rita made landfall between Sabine Pass, Texas,
and Johnson’s Bayou, Louisiana. Hurricane Rita’s storm surge reopened some of the levee
breaches caused by Hurricane Katrina, reflooded parts of New Orleans, and caused extensive
damage in the coastal areas of southwestern Louisiana.
Almost immediately after Hurricane Katrina made landfall and the extent of the devastation
became known, charities began receiving record amounts of donations for Hurricane relief. On
February 27, 2006, The Washington Post reported private, nonprofit charities had raised
$3.27 billion in donations for Hurricane Katrina relief, as compared to the $2.8 billion in
donations raised after the September 11, 2001, terrorist attacks.
On September 6, 2005, the Internal Revenue Service (IRS)
announced it would provide an expedited review process for              The IRS quickly responded to
                                                                           Hurricane Katrina and
new organizations seeking tax-exempt status to provide relief             committed to assist both
for victims of Hurricane Katrina. These new organizations were taxpayers and charities after the
advised that, when applying for tax-exempt status, they should                   Hurricane.
write at the top of their Applications for Recognition of
Exemption Under Section 501(c)(3) of the Internal Revenue Code (Form 1023) the words
“Disaster Relief, Hurricane Katrina,” to highlight their involvement with disaster relief. The IRS
Commissioner stated, “We want to make sure that we do all we can to help new charitable
organizations get up and running so they can begin providing the assistance the victims of this
terrible disaster so desperately need. Just as we did after September 11, 2001, we will put these
applications at the head of the queue and turn them around promptly.” The Commissioner also
promised, “The IRS will do everything possible to assist both taxpayers and charities in this
difficult time.” The IRS extended this treatment to organizations seeking tax-exempt status to
provide relief to victims of Hurricanes Rita and Wilma.1 In this audit, we focused on the Exempt
Organizations (EO) function’s processing of Forms 1023 and referrals of potentially abusive
exempt organization activity relating to Hurricane disaster relief for Hurricanes Katrina and Rita
only.


1
    Hurricane Wilma made landfall in Florida on October 24, 2005.
                                                                                             Page 1
                         The Exempt Organizations Function Effectively
                        Processed Requests for Tax-Exempt Status From
                       Charitable Organizations Supporting Hurricane Relief



The IRS also began providing broad tax relief to affected individuals, including extending the
time individuals in the Presidential Disaster Areas had to file tax returns and submit tax
payments and advising citizens seeking to make donations for Hurricane victims to seek out
qualified charities by searching an online list of charities with approved tax-exempt status on the
IRS Internet site (IRS.gov). The IRS also warned taxpayers about organizations committing
possible fraudulent acts related to disaster relief and recommended using IRS.gov to search for
existing legitimate, qualified charities. In addition, the IRS created a Disaster Relief Webpage
that included links related to information on recent disaster declarations (Hurricanes Katrina,
Wilma, and Rita), disaster relief, and a “Frequently Asked Questions” section developed from
summaries of telephone calls to the Tax Exempt and Government Entities Division Customer
Account Services function.
Treasury Inspector General for Tax Administration (TIGTA) officials met with staff of the
Senate Finance Committee on September 13, 2005, to discuss the TIGTA’s short- and long-term
plans to provide oversight of the IRS’ efforts to provide relief to taxpayers. This audit is part of
the TIGTA’s short-term approach.
This review was performed at the EO function National Headquarters in Washington, D.C.; the
EO Rulings and Agreements office in Cincinnati, Ohio; the EO Examinations function
Headquarters in Dallas, Texas; and the EO Examinations function field offices in
Chicago, Illinois, and St. Paul, Minnesota, during the period October 2005 through March 2006.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                             Page 2
                               The Exempt Organizations Function Effectively
                              Processed Requests for Tax-Exempt Status From
                             Charitable Organizations Supporting Hurricane Relief




                                        Results of Review

The Exempt Organizations Function Properly Expedited and
Processed Requests for Tax-Exempt Status From Charitable
Organizations Supporting Hurricane Relief
The IRS EO function quickly processed and approved new Hurricane-relief organizations’
Forms 1023, which better positioned the organizations to raise funds and provide relief to
Hurricane victims. We evaluated three aspects of this processing, including whether the
EO function properly approved requests for expedited processing of Forms 1023, followed
procedures designed to ensure Forms 1023 contained the necessary information for determining
tax-exempt status, and took actions to ensure the public was timely notified of Hurricane-relief
organizations that were granted tax-exempt status. In all three areas, the EO function effectively
and timely completed its processing.

Overall, the EO function properly expedited requests for tax-exempt status
related to Hurricane relief
Based on our review of samples of expedite requests for the period August 30 to
November 4, 2005, the EO function properly determined whether to expedite the assignment of
the Forms 1023 to the EO Determinations group in 76 of the 80 sampled requests. The sampled
requests approved for expedited processing generally met the IRS’ criteria, and those that did not
meet the criteria were denied.
The 80 requests in our 3 samples were randomly selected from a universe of 274 requests2 for
expedited processing. These requests included:
           •   Expedite requests (submitted with Form 1023) from August 30, 2005, that were
               approved, and the Form 1023 was closed3 by the EO function on or before
               November 4, 2005.
           •   Expedite requests (submitted with Form 1023) from August 30, 2005, that were
               denied.
           •   Both approved or denied expedite requests for Forms 1023 that had been submitted
               prior to September 3, 2005, but the organizations subsequently submitted requests for
               expedited processing.

2
    See Appendix IV for detailed information on our sampling methodology.
3
    The EO function made a determination regarding the tax-exempt status of the requesting organization.
                                                                                                           Page 3
                                The Exempt Organizations Function Effectively
                               Processed Requests for Tax-Exempt Status From
                              Charitable Organizations Supporting Hurricane Relief



 Organizations that were intending to provide Hurricane relief began sending in their Forms 1023
 with a request for expedited processing on September 2, 2005, and the EO function approved the
 first Form 1023 under the expedited process on September 9, 2005, just 11 days after Hurricane
 Katrina made landfall. As shown in Figure 1, requests for expedited processing sent to the IRS
 with Forms 1023 during the period September 2, 2005, through November 4, 2005, and entered
 into the EO function Hurricane Katrina/Rita/Wilma Inventory Report were worked quickly by
 EO function personnel to determine whether the Form 1023 should be expedited.
         Figure 1: IRS Inventory of Requests for Expedited Processing Submitted
             With Forms 1023 From September 2, 2005, to November 4, 2005
                                                                                 November 2005
                               September 2005             October 2005          (through 11/4/05)   Totals4
 Expedite Requests                     160                      124                       0          284
 Received
 Expedite Requests                      72                      139                       18         229
 Approved
 Expedite Requests                       3                       39                       5           50
 Denied5
Source: The EO function Hurricane Katrina/Rita/Wilma Inventory Report (as of 11/04/05).

 The EO function developed procedures for reviewing organizations’ requests for expedited
 processing of Forms 1023 as a result of its experience with processing requests submitted after
 the September 11, 2001, tragedy. Currently, an organization seeking tax-exempt status may
 request that its application be expedited if the request is in writing (either written at the top of the
 Form 1023 or in a separate document) and if there is a compelling reason to expedite the request
 (e.g., if a grant is pending and failure to obtain the grant will have an adverse impact on the
 organization’s ability to continue operations; if the purpose of the newly created organization is
 to provide disaster relief to victims of emergencies, such as floods and hurricanes; or if there was
 undue delay in issuing a determination letter based on problems within the IRS). Initially, the
 IRS approved any request for expedited processing following Hurricane Katrina, even though the
 organization may not have met the requirements for expedited processing. After reviewing some
 of the approved requests for expedited processing, the EO function decided to limit approval for
 expedited processing to those organizations showing that the planned disaster-relief activities
 were more than just an incidental part of their operations and would serve the broad public
 interest.



 4
     Expedite decisions had not yet been made for five cases at the time of our review.
 5
     In three instances, the date the expedite request was denied was not recorded.
                                                                                                      Page 4
                           The Exempt Organizations Function Effectively
                          Processed Requests for Tax-Exempt Status From
                         Charitable Organizations Supporting Hurricane Relief



When new Forms 1023 are received, the Cincinnati Submission Processing Site6 identifies any
that contain requests for expedited processing, controls them on the Employee Plans/Exempt
Organizations Determination System,7 and mails them to the EO function. The EO function
manually tracks them on a special disaster-relief expedite tracking spreadsheet and reviews them
to determine if the applications should be expedited. If the expedite request is approved, the
Form 1023 can be approved on merit (if the application is complete, or requires only minimal
information, and meets the requirements of the Internal Revenue Code) or immediately assigned
for additional review by the EO Determinations function. If the expedite request is denied, the
Form 1023 may still be approved on merit or placed in unassigned inventory for assignment at a
later date.
In addition, the IRS allowed an organization that had already submitted its application for
tax-exempt status (existing applications) to later request expedited processing of its application
because it had decided to include Hurricane relief as part of its activities. If the case was in
unassigned inventory, the expedite request was added to the special tracking spreadsheet and
either approved or denied. If the case was already assigned to a specialist or a field group, the
expedite request was forwarded to the assigned group, and the specialist or group manager was
responsible for determining whether expedite procedures should apply.

The EO function followed procedures designed to ensure Forms 1023 contained
all the necessary information to allow a determination to be made
When the EO Determinations function initially reviews a Form 1023, it can approve the Form on
merit or assign it to a specialist for further review. We reviewed the 54 cases8 in our samples for
which the EO function had approved the organizations’ applications for tax-exempt status and
determined that, in each of the 54 cases, the EO function followed procedures related to ensuring
the Forms 1023 contained all the necessary information before tax-exempt status was approved.
For a determination to be made, the EO function must ensure there is a complete application,
including all applicable pages and schedules; an organizing document; bylaws, if adopted;
financial data; and a narrative describing the organization’s past, current, and future activities.
We did not review the basis for the EO function’s decision to grant tax-exempt status to any
organization. The EO Rulings and Agreements function bases its decision to grant
tax-exempt status on the information supplied by an organization and assumes the operations of
the organization will be the same as those described in the Form 1023 submitted by the
organization. Some of the organizations submitting Forms 1023 related to Hurricane relief may
have only recently been formed and may have little or no history of past activities to report. The


6
  Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
7
  The Tax Exempt and Government Entities Division uses the Employee Plans/Exempt Organizations Determination
System to process and control determination letter applications.
8
  This included 50 new and 4 existing applications that were expedited due to disaster relief.
                                                                                                       Page 5
                                                 The Exempt Organizations Function Effectively
                                                Processed Requests for Tax-Exempt Status From
                                               Charitable Organizations Supporting Hurricane Relief



EO Examinations function is responsible for determining whether a tax-exempt organization is
operating in accordance with its exempt function.
Based on our review of EO function data, new applications granted expedited processing were
processed by the EO Determinations function in a much quicker time period. As shown in
Figure 2, the average processing time9 for expedited applications10 was much less than that for all
applications closed from September 2005 through February 2006. This was primarily because
Forms 1023 were expedited to the EO Determinations groups, not because the EO
Determinations groups conducted a limited review of the applications before determining
whether to approve or deny tax-exempt status.
          Figure 2: Average Processing Times for Expedited Forms 1023 and
              Total Forms 1023 (September 2005 Through February 2006)

                                             160
                                                          143
                                             140
                    Average Number of Days




                                             120
                                             100
                                                                                    Expedited Processing
                                             80
                                                                            60      Total Processing
                                             60
                                                     29
                                             40
                                             20                       13

                                              0
                                                   All Closures    Merit Closures
                                                          Type of Closure

                Sources: Expedited processing data were obtained from the EO function
                Hurricane Katrina/Rita/Wilma Inventory Report; total processing data were obtained
                from the Employee Plans/Exempt Organizations Determination System.

The EO function generally ensured the public was timely notified of organizations
granted tax-exempt status related to Hurricane relief
As part of its regular practice, the IRS lists all organizations eligible to receive tax-deductible
charitable contributions in the Cumulative List of Organizations described in Section 170(c) of

9
  The number of calendar days from the date the Form 1023 is postmarked by the United States Postal Service until
the case is closed.
10
   These included new Forms 1023 submitted with expedite requests for which the IRS approved the requests for
expedited processing and tax-exempt status.
                                                                                                           Page 6
                             The Exempt Organizations Function Effectively
                            Processed Requests for Tax-Exempt Status From
                           Charitable Organizations Supporting Hurricane Relief



the Internal Revenue Code of 1986 (Publication 78). Publication 78 is updated and issued in a
paper version annually. It is also maintained electronically on IRS.gov and updated quarterly.
EO function management ensured disaster-relief organizations whose exemptions were approved
under expedited processing procedures due to disaster relief were included in an online
addendum to Publication 78 maintained on IRS.gov. Based on discussions with EO function
management, the online addendum was updated every 1 to 2 weeks to notify the public as
quickly as possible.
We determined 53 of 54 organizations that requested expedited processing due to disaster-relief
activities and whose applications for tax-exempt status were approved were accurately listed in
the addendum to Publication 78. In one case, an organization’s name was correctly listed in the
addendum, but the city was incorrect. EO function management took immediate action to ensure
the organization’s city was correctly listed in the electronic version of Publication 78 on IRS.gov
and deleted it from the addendum when we brought it to their attention.

The Tax Exempt and Government Entities Division Has Developed
Draft Procedures for Reviewing Referrals of Potentially Abusive
Organizations Related to Hurricane Relief
The EO function has established procedures to ensure referrals of potentially abusive exempt
organizations received from both inside and outside the IRS are routed to the EO Examinations
function Classification Unit, where they are input to the Information Referral Database.
Referrals are normally screened in the Classification Unit to determine if the allegations should
be sent to a committee for review or to an Examinations function group in the field for further
development. However, in a September 2005 email, the Director, EO Examinations, required
that the Classification Unit forward all referrals related to Hurricane Katrina directly to the
Financial Investigations Unit (FIU). In addition, the Director, EO Examinations, informed us
that referrals related to Hurricanes Rita and Wilma would also be forwarded to the FIU. The FIU
is a new unit within the EO Examinations function designed to detect and deter fraudulent
transactions within the exempt organizations community through examinations of organizations
identified as potentially involved with fraudulent transactions.
The FIU has developed draft procedures to identify potentially abusive fundraising schemes; to
determine if the schemes involve an exempt organization(s); and to take action to refer any
organization(s) to the EO Examinations function Classification Unit, the EO Determinations
function, or another IRS division, as appropriate. EO function officials believe this will result in
initiating examination activities more quickly than its traditional approach11 and allow them to


11
  Examinations are traditionally not started until a year or two after the activity has occurred. However,
disaster-relief activities are often completed within a shorter period. With these draft procedures, the FIU may refer
a tax-exempt organization for examination before the organization has shut down operations.
                                                                                                              Page 7
                                 The Exempt Organizations Function Effectively
                                Processed Requests for Tax-Exempt Status From
                               Charitable Organizations Supporting Hurricane Relief



stop or correct potentially abusive disaster-relief activities before the organization decides to shut
down. These procedures are currently being reviewed for implementation.
The EO Classification Unit received two Hurricane-related referrals during the period
August 29, 2005, through November 4, 2005. Both of these referrals were sent to the FIU for
development. In addition, we reviewed a judgmental sample of 24 referrals in the Information
Referral Database to determine if we could identify additional referrals of potentially abusive
Hurricane-relief organizations that should have been sent to the FIU. For our judgmental sample
of 24 of 470 referrals received by the Classification Unit from August 29, 2005, through
November 4, 2005, we did not identify any other Hurricane-related referrals that should have
been, but were not, sent to the FIU.
In addition, the FIU is coordinating efforts with other Governmental agencies. The FIU is
serving as a technical advisor to law enforcement agencies outside the IRS. It advises the
outside agencies of the requirements for tax-exempt status and whether an organization is tax
exempt. Further, as a member of the FIU/Criminal Investigation Joint Task Force, the FIU
received a database of 163 questionable charitable organizations from the Federal Bureau of
Investigation. FIU officials informed us they have not identified any tax-exempt organizations
on the database. However, they are performing further research on the organizations to
determine if any are purporting to be tax exempt or soliciting funds by indicating that
contributions to them are tax deductible. Once the organizations have been identified, the FIU
plans to send each a letter12 requesting that it substantiate its tax-exempt status by providing the
IRS with a copy of its determination letter or the date on which it applied for tax-exempt status
and supplying the IRS with information, including whether it plans to apply for tax-exempt
status, the reason it is soliciting contributions, and any disclosures it is making on the
deductibility of contributions.




12
     The draft letter is in the notice review process.




                                                                                               Page 8
                        The Exempt Organizations Function Effectively
                       Processed Requests for Tax-Exempt Status From
                      Charitable Organizations Supporting Hurricane Relief



                                                                                   Appendix I


        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the adequacy of the Exempt Organizations
(EO) function’s efforts to ensure new tax-exempt organizations providing assistance to
individuals affected by Hurricanes Katrina and Rita were properly approved and referrals of
potentially abusive charitable organizations were given priority treatment. Specifically, we
assessed the processing of new applications for tax-exempt status and evaluated the
EO function’s efforts to address potentially abusive activities by tax-exempt organizations. Due
to resource limitations, we did not perform audit tests to determine the reliability of the
information contained in the databases obtained from the EO function. To accomplish this
objective, we:
I.     Determined previous actions taken by EO function management to address new
       tax-exempt organizations formed to provide assistance to victims of disasters.
       A. Interviewed EO Rulings and Agreements function management to determine how
          applications for tax-exempt status have been processed for previous disaster-relief
          situations (e.g., the September 11, 2001, terrorist attacks and 2004 Tsunami).
       B. Interviewed EO Examinations function management to determine actions taken to
          identify potentially abusive activities by charitable organizations following prior
          disasters.
II.    Identified publicity efforts taken by the Internal Revenue Service to inform the public
       about using approved tax-exempt organizations to provide assistance to individuals
       affected by Hurricane Katrina.
       A. Interviewed EO Customer Education and Outreach function management to identify
          actions taken to inform the public about available approved organizations for
          Hurricane Katrina relief.
       B. Obtained and reviewed applicable documentation showing the outreach activity taken
          in this area.
III.   Assessed the EO Rulings and Agreements function’s review and approval process for
       new organizations seeking tax-exempt status to provide assistance to Hurricane victims.
       A. Obtained and reviewed any procedures developed related to the processing of
          applications of new organizations seeking tax-exempt status to provide assistance to
          Hurricane victims.

                                                                                           Page 9
                               The Exempt Organizations Function Effectively
                              Processed Requests for Tax-Exempt Status From
                             Charitable Organizations Supporting Hurricane Relief



           B. Interviewed EO Rulings and Agreements function management to obtain information
              regarding how applications were processed for new organizations seeking tax-exempt
              status to provide assistance to Hurricane victims.
           C. Determined whether the procedures for processing applications by new organizations
              seeking tax-exempt status to provide assistance to Hurricane victims were revised
              based upon experience with previous disaster-relief situations (identified in
              Step I.A.).
           D. Determined the number of applications received for Hurricane assistance and the case
              status (pending, approved, denied).
           E. Randomly selected 3 samples totaling 80 requests from a universe of 274 requests for
              expedited processing mailed to the Internal Revenue Service and input to the
              Hurricane Katrina/Rita/Wilma Inventory Report. These samples consisted of
              1) expedite requests (submitted with Form 1023) from August 30, 2005, that were
              approved and for which the Form 1023 was closed1 by the EO function on or before
              November 4, 2005; 2) expedite requests (submitted with Form 1023) from
              August 30, 2005, that were denied; and 3) both approved or denied expedite requests
              for Forms 1023 that had been submitted prior to September 3, 2005, but for which the
              organizations subsequently submitted requests for expedited processing.2 We
              determined whether the requests were processed according to established guidelines
              and time periods for priority treatment and whether organizations that were granted
              tax-exempt status were added timely to the Cumulative List of Organizations
              described in Section 170(c) of the Internal Revenue Code of 1986 (Publication 78).
              We used random sampling techniques to minimize time and travel costs.
IV.        Assessed the EO function’s efforts to address referrals of potentially abusive activities
           related to Hurricane assistance by tax-exempt organizations.
           A. Interviewed EO Examinations function management to obtain information regarding
              how potentially abusive activities related to Hurricane relief will be identified.
           B. Determined whether the process for identifying tax-exempt organizations committing
              potentially abusive activities for any type of disaster-relief effort was revised based
              upon experience with prior disasters (identified in Step I.B.).
           C. Determined whether EO function management coordinated identification efforts with
              other Federal or State agencies.
           D. Determined whether referrals of organizations identified as potentially engaging in
              abusive activities were received by EO function management.

1
    The EO function made a determination regarding the tax-exempt status of the requesting organization.
2
    See Appendix IV for a detailed explanation of the sampling methodology.
                                                                                                           Page 10
                 The Exempt Organizations Function Effectively
                Processed Requests for Tax-Exempt Status From
               Charitable Organizations Supporting Hurricane Relief



E. Selected a judgmental sample of 24 referrals of 470 organizations identified as
   potentially engaging in abusive activities during the period August 29, 2005, through
   November 4, 2005, from the Information Referral Database and determined whether
   they were processed according to established guidelines, whether they were given
   priority treatment, and what action was taken. We used judgmental sampling
   techniques to minimize time and travel costs.




                                                                                 Page 11
                       The Exempt Organizations Function Effectively
                      Processed Requests for Tax-Exempt Status From
                     Charitable Organizations Supporting Hurricane Relief



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit, Headquarters Operations and Exempt
Organizations Programs
Nancy Nakamura, Director
Jeffrey M. Jones, Audit Manager
Thomas F. Seidell, Lead Auditor
Cheryl J. Medina, Senior Auditor
Jeffery Smith, Senior Auditor
Donald J. Martineau, Auditor




                                                                                      Page 12
                      The Exempt Organizations Function Effectively
                     Processed Requests for Tax-Exempt Status From
                    Charitable Organizations Supporting Hurricane Relief



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Exempt Organizations Examinations, Tax Exempt and Government Entities Division
SE:T:EO:E
Director, Exempt Organizations Rulings and Agreements, Tax Exempt and Government Entities
Division SE:T:EO:RA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 13
                              The Exempt Organizations Function Effectively
                             Processed Requests for Tax-Exempt Status From
                            Charitable Organizations Supporting Hurricane Relief



                                                                                                   Appendix IV

                 Detailed Information on Case Sampling
                        Methodology and Results

 We randomly selected 3 samples totaling 80 requests from a universe of 274 requests for
 expedited processing mailed to the Internal Revenue Service (IRS) and input to the
 Hurricane Katrina/Rita/Wilma Inventory Report during the period August 30 to
 November 4, 2005. Detailed information about the results of each sample is shown in Figure 1.
 Figure 1: Results From Review of Samples of Requests for Expedited Processing
                                                                Type of Expedite Request
                                           Approved                 Denied Request              Approved or Denied
                                            Request                (Submitted With                   Request
                                        (Submitted With              Application)                (Application Was
                                          Application1)                                        Previously Submitted)
 Universe (as of 11/04/2005)                   146                         50                             78
 Sample Size                                    50                         10                             20
 Requests Reviewed                              50                         92                             193
 Expedite Decision Correct                   49 (98%)                  9 (100%)                        18 (95%)
 Tax-Exempt Status Approved                     50              N/A (expedite request                      4
                                                               denied – case returned to
                                                                      inventory)
 Exempt Organizations (EO)                      50              N/A (expedite request                      4
 Function Followed                                             denied – case returned to
 Procedures to Ensure the                                             inventory)
 Application Was Complete
 EO Function Timely Notified                    504             N/A (expedite request                      4
 the Public the Organization                                   denied – case returned to
 Was Tax Exempt                                                       inventory)
Source: Treasury Inspector General for Tax Administration analysis of IRS case files.


 1
   Application for Recognition of Exemption Under Section 501(c)(3) of the Internal Revenue Code (Form 1023).
 2
   We did not review one case that was initially approved for expedited processing but later reclassified as a denied
 expedite when the Exempt Organizations function decided to limit approval for expedited processing.
 3
   We did not review one case that was closed on merit prior to receipt of the expedite request.
 4
   In one case, an organization’s name was correctly listed in the Cumulative List of Organizations described in
 Section 170(c) of the Internal Revenue Code of 1986 (Publication 78) addendum, but the city was incorrect.
                                                                                                               Page 14
